  DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General

                Letter Report:

          Independent Review of The
     U.S. Customs and Border Protection’s
             Reporting of FY 2005
              Drug Control Funds




               Office of Audits
OIG-06-26                          March 2006
                     1
                                                                      Office of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                     March 20, 2006


MEMORANDUM FOR:              Deborah J. Spero
                             Acting Commissioner
                             U.S. Customs and Border Protection


FROM:                        Richard L. Skinner
                             Inspector General

SUBJECT:                     Independent Review of the U.S. Customs and Border Protection’s
                             Reporting of FY 2005 Drug Control Funds

The Office of National Drug Control Policy (ONDCP) requires U.S. Customs and Border Protection
(CBP) to submit an annual Detailed Accounting Submission (Submission), as authorized by 21
U.S.C. § 1704(d) and ONDCP Circular, Drug Control Accounting (Circular), April 18, 2003, to
ONDCP. The Submission is included in this report as Appendix A, and the Circular is included as
Appendix B. The Submission is the responsibility of CBP’s management.

We have reviewed the reasonableness and accuracy of the drug methodology used to calculate
obligations of prior year budgetary resources by function and by budget decision unit according to
the criteria specified in Section 6(b) of the Circular; and whether the drug methodology disclosed in
the Submission was the actual methodology used to generate the table required by Section 6(a) of the
Circular. Drug methodology means the process by which CBP calculates its drug-related financial
statistics according to ONDCP requirements.

Our review was conducted in accordance with attestation standards established by the American
Institute of Certified Public Accountants. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the reasonableness and
accuracy of the drug methodology used to calculate obligations of prior year budgetary resources by
function and by budget decision unit according to the criteria specified in Section 6(b) of the
Circular; and whether the drug methodology disclosed in the Submission was the actual
methodology used to generate the table required by Section 6(a) of the Circular. Accordingly, we do
not express such an opinion.



                                                  1
Our review disclosed that, in its Submission, CBP reported using a factor of 90 percent to calculate
the CBP Air and Marine’s contribution to CBP’s reported drug-related obligations. The factor used
in CBP Air and Marine’s actual calculation of drug-related obligations was 84 percent. The
Submission also omitted a description of the methodology used by CBP Air and Marine to allocate
its drug-related obligations between Intelligence and Interdiction functions. These two conditions
deviate from the requirement that the drug methodology disclosed in the Submission was the actual
methodology used to generate the table required by Section 6(a) of the Circular.

Our review disclosed that the Independent Auditors’ Report1 for CBP’s balance sheet as of
September 30, 2005, identified a material weakness related to information technology. The report
said that the information technology control weaknesses limited “CBP’s ability to ensure that critical
financial and operational data is maintained in such a manner to ensure confidentiality, integrity, and
availability.” Material weaknesses are reportable conditions in which the design or operation of one
or more of the internal control components does not reduce to a relatively low level the risk that
misstatements, in amounts that would be material in relation to the financial statements being
audited, may occur and not be detected within a timely period by employees in the normal course of
performing their assigned functions. Reportable conditions are matters coming to the auditors’
attention relating to significant deficiencies in the design or operation of the internal control over
financial reporting that, in the auditors’ judgment, could adversely affect CBP’s ability to record,
process, summarize, and report financial data consistent with the assertions by management in the
financial statements. The material weakness related to information technology deviates from the
criteria that financial systems supporting the drug methodology should yield data that fairly present,
in all material respects, aggregate obligations from which drug-related obligation estimates are
derived.

We did not review, as required by the Circular, whether data presented are associated with
obligations against a financial plan that, if revised during the fiscal year, properly reflects those
changes, including ONDCP’s approval of reprogrammings or transfers affecting drug-related
resources in excess of $5 million. Further, we did not review whether the data presented are
associated with obligations against a financial plan that fully complied with all Fund Control Notices
issued by the ONDCP Director under 21 U.S.C. § 1703(f) and Section 8 of the ONDCP Circular,
Budget Execution. We did not review these matters because of incomplete criteria against which to
evaluate the subject matter, in terms of measurability and applicability for multi-mission bureaus, of
which CBP is one. We recommend that CBP, in conjunction with DHS, obtain formal guidance
from ONDCP and legal counsel, as appropriate, on appropriate and suitable criteria to evaluate these
matters for multi-mission bureaus.

Based on our review, except for the effects, if any, of the matters discussed in paragraphs four and
five of this report, nothing came to our attention that caused us to believe that the drug methodology
used to calculate obligations of prior year budgetary resources by function and by budget decision
unit is not reasonable and accurate, in all material respects, in conformity with criteria specified in
the Circular, and that the drug methodology disclosed in the Submission was not the actual
methodology used to generate the table required by the Circular, in all material respects.

1
 See DHS Office of Inspector General Report Number OIG-06-12, December 2005. KPMG LLP, an independent public
accounting firm, performed the audit of CBP’s balance sheet as of September 30, 2005.


                                                     2
We provided a copy of this report in draft to CBP. CBP concurred with the findings and agreed to
implement the report’s recommendation found in paragraph six.

This report is intended solely for the information and use of CBP, DHS, ONDCP, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.

Should you have any questions concerning this review, please call me, or your staff may contact
David M. Zavada, Assistant Inspector General for Audits, at (202) 254-4100.




                                                 3
DISTRIBUTION

DHS

Secretary
Deputy Secretary
Executive Secretary
General Counsel
Chief of Staff
Under Secretary for Management
Assistant Secretary for Public Affairs
Assistant Secretary for Policy
Assistant Secretary for Legislative Affairs
Acting Chief Financial Officer
Chief Security Officer
DHS Audit Liaison

CBP

Acting Commissioner
Chief Financial Officer
CBP Audit Liaison

Office of National Drug and Control Policy

Associate Director for Planning and Budget

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees as appropriate




                                               4
Appendix A




             5
6
7
8
9
Appendix B




             10
11
12
13
14
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
